»-J

.COCKLE

2311 Douglas Street
Omaha. Nebraska 68102-1214

Legal Briefs
Est. 1923

1 -800-225-6964
(402)342-2831
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com
Web Site
wwvv.cockleIegalbriefs.com

No. 21MARTEZ L. SMITH,
Petitioner,
v.
UNITED STATES OF AMERICA
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8821 words, excluding the parts that are exempted by Supreme
Court Rule 33.1 (d), as needed.

Subscribed and sworn to before me this 30th day of July, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NQTARY-State of Nebraska

I!

RENEE J. QOSS

My Comm. Exp. September 5,2023

Notary Public

Affiant

40998

